Department of Homeland Security
   Ofﬁce of Inspector General

                U.S. Coast Guard's 

              Marine Safety Program-

            Offshore Vessel Inspections 





OIG-11-86                                   June 2011
                                                            Office a/Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                             JUNO 1 Z011

                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Coast Guard's offshore vessel
inspection process. It is based on interviews with employees and offiCials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                              .     ards
                                                  ·lC
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................6 


     Marine Safety Inspection Guidance for Offshore Vessels.............................................6 

     Recommendation ...........................................................................................................7 

     Management Comments and OIG Analysis ..................................................................7 


     Recording Inspection Results .......................................................................................8 

     Recommendations........................................................................................................10

     Management Comments and OIG Analysis ................................................................10 


     MISLE Database Quality Control................................................................................11 

     Recommendation .........................................................................................................13 

     Management Comments and OIG Analysis ................................................................13 


     Other Concerns ............................................................................................................14 



Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................15 

     Appendix B:           Management Comments to the Draft Report .......................................18 

     Appendix C:           Major Contributors to this Report........................................................20 

     Appendix D:           Report Distribution ..............................................................................21 


Abbreviations
     Coast Guard           United States Coast Guard 

     DHS                   Department of Homeland Security 

     FY                    fiscal year           

     GAO                   Government Accountability Office 

     MISLE                 Marine Information for Safety and Law Enforcement
 

     OCMI                  Officer in Charge, Marine Inspection 

     OIG                   Office of Inspector General 

     OMB                   Office of Management and Budget 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The U.S. Coast Guard’s Marine Safety program is intended to
                     ensure the safety of tens of thousands of U.S. mariners, millions of
                     passengers on ferries and other vessels, and tens of millions of
                     recreational boaters. The Marine Safety program includes Marine
                     Safety Inspections of most vessel types; these inspections can
                     uncover unsafe vessels, prevent certain incidents from occurring,
                     and ensure that vessels have sufficient lifesaving equipment
                     onboard to respond to an incident. For this audit, we focused on
                     the Marine Safety Inspections for offshore vessels such as floating
                     production systems, offshore supply vessels, and mobile offshore
                     drilling units.

                     We planned this audit to determine whether the U.S. Coast Guard
                     has the capabilities and resources needed to inspect offshore
                     vessels and ensure the safety of maritime commerce. We did not
                     identify any instances of uninspected offshore vessels. Although
                     we did identify a few instances of vessels being inspected by
                     unqualified personnel, 99% of the inspections reviewed were
                     conducted by qualified personnel. However, we determined that
                     the U.S. Coast Guard does not have adequate information to plan
                     and resource future Marine Safety program activity levels.

                     The Marine Safety program has not developed and implemented
                     all the guidance Marine Inspectors need to conduct offshore vessel
                     inspections and record the results of those inspections. Program
                     officials also have not established a formal review process for
                     Marine Safety domestic vessel inspection data. With insufficient
                     guidance and oversight to ensure consistent and reliable data, the
                     U.S. Coast Guard cannot determine its current or future resource
                     requirements for this program.

                     We made four recommendations to improve the U.S. Coast
                     Guard’s management of the Marine Safety program. The U.S.
                     Coast Guard concurred with all four recommendations and is
                     taking action to implement them.




             U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                             Page 1 

Background
                             The U.S. Coast Guard (Coast
                                                      (Coast Guard) adm
                                                                      administers
                                                                          inisters navigation and
                             vessel inspection laws, rules, and regulations governing ma marine
                             safety. It is also tasked with inspecting the vessels to which these
                             laws apply. The Coast Guard’s Ma  Marine
                                                                    rine Safety program is intended
                             to ensure the safety of tens of thousands of U.S. ma mariners, m
                                                                                            miillions
                             of passengers on ferries and other vevessels, and tens of m
                                                                                       million
                                                                                         illionss of
                             recreational boaters by inspecting vessels to ensure
                                                                             ensure that they
                             operate safely and have the necessary safety equipment
                                                                              equipment onboard.
                             By preventing ma marine casualties, the
                                                                 the Coast Guard also prprotects the
                                                                                                  the
                             marine environm
                                     environmentent from oil spills
                                                             spills and the in
                                                                            intro
                                                                              troduction
                                                                                 duction of other
                             harmful substances, and strengthens the economy
                                                                         economy by minimizing
                                                                                         nimizing
                             property loss and disruptions to maritime commerce.

                             Marine Safety Inspections of U.S. and
                                                                 and foreign vessels ensure that
                             safety and environmental
                                        environmental protect
                                                        protection
                                                               ion standards are me
                                                                                 met. The
                             inspections are comprehensive
                                              comprehensive in nature, and often encom
                                                                                   encompas
                                                                                          passs
                             machinery, electrical, piping, industrial,
                                                            industrial, navigation, and pollution
                             prevention systems.
                                        systems. The Coast Guar
                                                              Guardd reports that in a typical year,
                             the Marine Safety program conducts m   moore than 70,000 dom
                                                                                       domestic
                                                                                            estic
                             vessel inspections and 10,000 Port State Control examinations
                                                                                examinations of
                             foreign vessels.

                             For this audit, we focused on
                                                                          Coast Guard’s Inspected Fleet
                             the Marine Safety Inspections        General Dry               Other Vessels,
                             for offshore vessels such as       Cargoo Ships, 1%                5%

                             floating production systems,
                                                  systems,        Offshore
                             offshore supply vessels, and        Vessels, 8%

                             mobile offshore drilling units.
                             Offshore vessels comprise
                                               comprise                                                    Passenger
                                                                                                           Ships, 52%
                             approxim
                             approximately
                                       ately 8% of the fleet     Barges, 34%
                             inspected by the Coast Guard.
                                                     Guard. 

                             From January 2009 to June 

                             2010, Coast Guard’s District 8 Source: U.S. Coast Guard, 2006–2009 

                             conducted approximately
                                        approximately 88% of all offshore vessel inspections. 


                             Inspection Process

                             United States law subjects certain categories of domestic and
                             foreign-flagged or foreign-built vessels to Coast Guard inspections
                             and certifications. 1 In general, to obtain or renew a Certificate of
                             Inspection for a domestic vessel, the owner or operator of the

1
    46 U.S.C. § 3301 et seq. and 46 C.F.R. Chapter I.


                    U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                                      Page 2 

        vessel submits an application to the Coast Guard to the Officer in
        Charge, Marine Inspection (OCMI) of the marine inspection zone
        in which the inspection is to be made. The Coast Guard then
        schedules the inspection. Upon completion of the safety
        inspection, and on condition that the vessel and its equipment are
        approved by the inspector, the Coast Guard issues a Certificate of
        Inspection or a Temporary Certificate of Inspection. After
        receiving the first Certificate of Inspection, and in addition to
        Certificate renewal inspections, domestic vessels are still subject to
        annual or biannual inspections, depending on the category of
        vessel.

        With certain exceptions, all domestic and foreign vessels bound for
        or departing from ports or places in the United States must submit
        a Notice of Arrival to the National Vessel Movement Center.
        After the information is imported into the Coast Guard’s Ship
        Arrival Notification System for screening and viewed using the
        Marine Information for Safety and Law Enforcement (MISLE)
        database, the vessel potentially becomes subject to a safety
        examination.

        With certain exceptions and depending on the category of vessel,
        foreign vessels of countries that are signatories to the 1974
        International Convention for the Safety of Life at Sea are issued a
        Certificate of Compliance upon satisfactory completion of a
        compliance examination by the OCMI. Foreign vessels of non-
        signatory countries to that Convention may be issued a Certificate
        of Inspection or a Temporary Certificate of Inspection.

        Aside from the regulations guiding inspections, the Coast Guard
        does not employ an independent method to identify vessels
        needing annual inspections. Further, the Coast Guard does not
        proactively schedule vessel inspections because vessel owners are
        responsible for notifying the Coast Guard of required inspections.

        Inspection Data

        The Coast Guard’s MISLE database is the central repository for all
        inspection data and is the primary information source for
        inspection and investigation work. MISLE is one of the data
        sources that supports key Coast Guard management decisions,
        such as establishing human capital requirements, quantifying
        resource shortfalls, and reallocating existing resources.



U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                               Page 3
        In 2008, the Government Accountability Office (GAO) assessed
        the effectiveness of the Coast Guard’s facility inspection program
        and to what extent the Coast Guard ensures that program
        compliance data collected and reported are reliable. The GAO
        reported that flaws in the Coast Guard’s database complicate its
        ability to conduct program analysis or provide other information
        for making management decisions. The GAO recommended that
        the Coast Guard assess MISLE compliance data, including the
        completeness of the data, data entry, consistency, and data field
        problems, and make any changes needed to utilize MISLE data
        more effectively.

        In a response to the GAO, on August 25, 2010, the Coast Guard
        described steps taken to improve consistency and data entry time.
        Specifically, the Coast Guard indicated that it had developed
        training web portals, headquarters help desks, courses, training
        teams, seminars, and conferences to help field personnel keep up
        with the changes to MISLE. These actions may result in improved
        data consistency and reduce the time it takes to input data into
        MISLE. However, as highlighted in this report, improvements are
        still needed to ensure the completeness and accuracy of vessel
        safety inspection data input into MISLE.

        Marine Inspector Qualifications

        The Coast Guard conducted a performance analysis in April 2005
        to determine the requirements for Coast Guard Marine Inspectors.
        In October 2007, the Coast Guard revised its Performance
        Qualification Standards for Marine Inspectors as part of its effort
        to enhance mission execution. In an earlier DHS OIG report,
        United States Coast Guard’s Management of the Marine Casualty
        Investigations Program (May 2008), we determined that the
        August 2007 revisions of the Marine Casualty Investigator
        Performance Qualification Standards lowered the standards by
        removing prequalification requirements of a Hull or Machinery
        and Small Vessel Inspector.

        To determine if the October 2007 revisions to the Marine Inspector
        Performance Qualification Standards lowered the standards, we
        reviewed and compared selected standards for domestic and
        foreign vessel safety inspections with the earlier standards.
        Although the Coast Guard removed some qualification
        requirements from its October 2007 standards, it added
        qualification requirements to all the standards included in our


U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                               Page 4
        review except one. We did not find any evidence that the Coast
        Guard lowered the requirements in the October 2007 Marine
        Inspector Performance Qualification Standards that we reviewed
        for this audit (see Appendix A for more details).

        Historical Issues

        In 2007, the House Committee on Transportation and Infrastructure
        scrutinized the Marine Safety program’s ability and preparedness to
        meet the demands of a dynamic global maritime environment. The
        committee was concerned whether the Coast Guard had the human
        capital and technical expertise to safeguard the maritime industry.
        In response to these concerns and to significant changes in the
        maritime industry, the Coast Guard developed its fiscal year (FY)
        2009–2014 Marine Safety Performance Plan. This plan included
        courses of action to determine workload and set appropriate
        staffing levels, as well as improve the quality of training, reduce
        maritime casualties, facilitate commerce, improve processes and
        management, and improve human resource capabilities.

        In January 2010, the GAO reviewed the Coast Guard’s efforts to
        develop electronic tools to allow for more data-driven management
        decisions on personnel requirements and preparedness. It reported
        that resource constraints and problems with coordination and data
        reliability might challenge the Coast Guard’s efforts. As of
        October 2010, the Coast Guard reported a shortfall of 104 Marine
        Inspectors in its Marine Safety program. However, this analysis
        was based on MISLE data that may be incomplete and inaccurate.

        Program Budget

        From FY 2004 to FY 2011, the budget for the Marine Safety
        program represented between 6% and 9% of the overall Coast
        Guard budget. The FY 2010 and requested FY 2011 Marine
        Safety budgets were approximately $650 million per year. The
        Marine Safety budget supports all Marine Safety program
        elements, including marine safety, security, and environmental
        protection.




U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                Page 5 

Results of Audit 

     We identified no instances of uninspected offshore vessels and few instances of
     vessel inspections being conducted by unqualified personnel. Qualified personnel
     conducted 99% of the inspections we reviewed (see Appendix A for details).
     However, the Coast Guard needs to improve its guidance and oversight of
     offshore vessel inspections. The Coast Guard has not developed and implemented
     all the guidance Marine Inspectors need to conduct offshore vessel inspections
     and record the results of those inspections. The Coast Guard also has not
     established a formal review process for Marine Safety domestic vessel inspection
     data.

     With insufficient guidance and oversight to ensure consistent and reliable data,
     the Coast Guard cannot determine its current or future resource requirements for
     this program. Gaps in guidance may affect the quality and consistency of safety
     inspections. Because there is no formal review process, program personnel could
     be using inconsistent and unreliable inspection data and cannot make key program
     decisions accurately.

     Marine Safety Inspection Guidance for Offshore Vessels
            Agency program offices are required to establish proper internal controls,
            which include standards for policies and procedures. According to Office
            of Management and Budget (OMB) Circular A-123, as revised,
            information should be communicated to relevant personnel at all levels
            within an organization. This includes providing updated guidance and
            management communication to operational staff. The Coast Guard has
            not developed and implemented all guidance Marine Safety Inspectors
            need to conduct all aspects of offshore vessel inspections.

            The Coast Guard’s vessel inspection workload includes inspecting the
            construction of new vessels, including offshore vessels. There is currently
            no Marine Inspector Performance Qualification Standard for inspecting a
            vessel under construction. A draft New Construction Project Inspector
            Performance Qualification Standard was developed in May 2008 but has
            not yet been made final.

            Without a consistent standard or competency for inspecting vessels under
            construction, inspections are conducted differently from unit to unit,
            potentially affecting the consistency and quality of inspections. For
            example, Coast Guard headquarters conveyed that to oversee the new
            construction of a barge, a Marine Inspector would need to be a qualified
            barge inspector. However, one sector we visited in District 8 does not
            require that a Marine Inspector be qualified to inspect the new construction


            U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                                           Page 6
of a particular type of vessel until that vessel is approximately 80%
complete. Another unit in District 8 assigns only Marine Inspectors who
are qualified to inspect a particular type of vessel to inspect the new
construction of that type of vessel. Developing clear and consistent
guidance for this type of inspection work could also assist the training and
professional development of Marine Inspectors.

Recommendation
        We recommend that the Assistant Commandant for Marine Safety,
        Security and Stewardship, U.S. Coast Guard:

        Recommendation #1: Complete and disseminate to field units
        New Construction Project Inspector Performance Qualification
        Standards and update the Marine Safety Manual accordingly.

Management Comments and OIG Analysis
        The Coast Guard provided written comments to this report.
        Following each recommendation is a summary of the Coast
        Guard’s plans and progress in response to our recommendations
        and our analysis. A copy of the Coast Guard’s response is
        included in Appendix B.

        Management Comments to Recommendation #1

        Concur. The Coast Guard will begin its analysis of the Marine
        Inspector Course in the third quarter of FY 2011 and will consider
        new construction and plan review as part of the analysis. These
        tasks will be incorporated into the Performance Qualification
        Standards and curriculum job aids developed for inspectors. The
        Coast Guard anticipates it will implement this recommendation in
        the third quarter of FY 2012.

        OIG Analysis
        We consider the proposed action to be responsive to the
        recommendation. However, this recommendation will remain
        open and resolved until we receive and review the Performance
        Qualification Standards and job aids developed for inspectors that
        include standards and guidelines for the inspection of vessels under
        construction, including an update to the Marine Safety Manual.




U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                Page 7 

Recording Inspection Results
     Internal controls associated with the recording of the Coast Guard’s
     inspection data need to be improved. Specifically, adequate MISLE user
     guidance should be developed to better guide Marine Inspectors to input
     consistent and complete inspection data into MISLE. OMB Circular A­
     123, as revised, requires that internal controls be in place over information
     systems, including application controls, to ensure that transactions are
     properly authorized and processed accurately and that the data are valid
     and complete. The Coast Guard should establish safeguards to prevent the
     editing and closing of inspection cases until someone other than the
     originating Marine Inspector reviews the cases.

              MISLE User Guidance

              Although the Coast Guard has developed inspection input guidance
              for the examination of foreign vessels, it has not developed
              comprehensive guidance for recording activity data collected
              during domestic vessel safety inspections. The sectors and Marine
              Safety Units we visited in District 8 reported that their inspection
              results are recorded inconsistently from unit to unit. Although a
              vessel owner schedules one inspection, the Coast Guard could
              perform several types of inspection activities at that time. Some
              Coast Guard units record one inspection as one activity, whereas
              other units record one inspection, including the different activities
              that make up that inspection, as several different activities. The
              difference in the way units record inspection data can create the
              appearance that one unit has completed more inspections than
              another unit performing the same amount of work. The data input
              also may not accurately reflect field activity. Although some
              MISLE user guidance does exist, 25 of the 51 Marine Inspectors
              we interviewed expressed some level of concern with the MISLE
              database, including inadequate, incomplete, inconsistent, or
              missing MISLE guidance.

              The Port State Control program uses MISLE data to screen foreign
              vessels and evaluate risk factors applicable to a vessel’s compliance
              with international safety and environmental standards. Vessels
              posing the greatest risk undergo examinations. At one sector we
              visited, the Port State Control examiners are advised to recalculate
              certain data taken from MISLE because the information is
              inaccurate.




      U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                      Page 8 

        Personnel interviewed were concerned with the transparency of
        resource allocation decisions based on activity levels as
        represented in MISLE. Although headquarters has recognized this
        as an issue, it has not yet developed interim guidance to clarify and
        correct these inconsistencies. The inconsistencies in data input
        prevent decision makers from obtaining a clear picture of the work
        being done. In addition, these unit-to-unit disparities cause the data
        extracted from MISLE to be inconsistent, which creates more work
        for end users of the data because they have to take different data
        entry methods into consideration. The discrepancies also make it
        difficult for the Coast Guard to accurately report workloads, and can
        affect resource considerations.

        To test the data input into the MISLE system for consistency, we
        compared 62 randomly selected hardcopy Certificates of Inspection
        against data entries in MISLE that corresponded with the same
        certificate activities. Of the 62 hardcopy Certificates of Inspection
        reviewed, 56 did not match the certificate entries made by Marine
        Inspectors in MISLE. In one example, the certificate indicated that
        eight different inspection activities had taken place, while the
        MISLE information indicated only two activities. In another
        example, the Certificate of Inspection indicated that only 3
        inspection activities had taken place, while the MISLE data
        indicated 11 activities. In the cases where the Certificate of
        Inspection information did not match or include the same level of
        detail in MISLE, we could not determine what types of inspections
        were conducted.

        After the prior inspection database crashed in late 2001, MISLE
        was quickly launched, and corresponding guidance and policy
        were never developed. In December 2009, a team of volunteers
        began developing the Domestic Vessel User Guide. Their efforts
        have been delayed because members have been called to assist
        with mission-critical activities, including Haiti relief and
        Deepwater Horizon support. Currently, the project is on hold
        pending the development and implementation of a newer version
        of MISLE.

        Access Controls

        Sufficient internal controls within MISLE to track edits or prevent
        Marine Inspectors from opening and closing their own inspection
        activity have not been established. Inspection cases can be
        reopened by any Marine Inspector at the originating sector or


U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                               Page 9
        Marine Safety Unit, but MISLE does not track the changes and
        shows only that the activity was edited. Cases can also be opened
        and closed by the same individual without being reviewed.
        Internal controls, including application controls, must be in place
        over information systems. Application controls should be
        designed to ensure that transactions are properly authorized and
        accurately processed, and that the data are valid and complete.
        Controls should be established at an application’s interfaces to
        verify inputs and output, such as edit checks.

        The Coast Guard uses MISLE data to conduct research on vessel
        history in preparation for safety inspections, to follow up on
        deficiencies recorded in previous inspections, and to support
        findings if appealed by vessel owners. Without adequate access
        controls for MISLE, these data may be faulty.

        Marine Safety program officials said that Marine Inspectors must
        have the access to edit and close activities because it enables
        flexibility and timeliness. However, the chance for mistakes and
        abuse increases when any one individual is able to open, modify,
        and close inspection records. By establishing access controls for
        MISLE data, the Coast Guard would minimize inaccurate
        inspection data. Without such controls, potentially inaccurate
        inspection data may be used throughout all Coast Guard missions to
        report performance and to make resource and operational decisions.

Recommendations
        We recommend that the Assistant Commandant for Marine Safety,
        Security and Stewardship, U.S. Coast Guard:

        Recommendation #2: Develop and disseminate MISLE user
        guidance for domestic vessel safety inspections.

        Recommendation #3: Augment MISLE access controls, and
        develop subsequent policy, so that the same person cannot open,
        complete, and close an inspection case.

Management Comments and OIG Analysis

        Management Comments to Recommendation #2

        Concur. The Coast Guard is currently developing policy for the
        data entry of domestic vessel safety inspections into MISLE. User


U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                               Page 10
             guides based on this policy for use with the next version of MISLE
             (5.0) are also under development. The Coast Guard anticipates
             completing the development of the policy and user guides from the
             fourth quarter of FY 2011 through the third quarter of FY 2012.

             OIG Analysis
             We consider the ongoing actions to be responsive to the
             recommendation. However, this recommendation will remain
             open and resolved until we receive and review the final and
             disseminated policy and relevant user guides.

             Management Comments to Recommendation #3

             Concur. The Coast Guard will recommend establishing access
             control levels to MISLE 5.0 developers, and provide policy to the
             field regarding opening, completing, and closing an inspection
             case. The Coast Guard anticipates implementing this
             recommendation in the third quarter of FY 2013.

             OIG Analysis
             We consider the proposed action to be responsive to the
             recommendation. However, this recommendation will remain
             open and resolved until we receive confirmation that the Coast
             Guard has recommended establishing access control level to
             MISLE 5.0 developers, and we receive and review the final policy
             disseminated to the field establishing internal controls for opening,
             completing, and closing an inspection case.


MISLE Database Quality Control
     Not all MISLE entries of vessel inspections and examinations of offshore
     vessels are reviewed for consistency, accuracy, and completeness.
     Further, processes are not in place to detect overdue deficiencies of
     vessels, so some deficiencies have remained unaddressed for as long as
     1 year. OMB Circular A-123, as revised, requires that periodic review,
     reconciliations, or comparisons of data be included as part of the regular
     assigned duties of personnel.

     The Coast Guard units we visited in District 8 have some review processes
     in place, but they are not sufficient to ensure that inspection data are
     consistent, accurate, and complete. In addition, the Coast Guard does not
     formally conduct periodic reviews of inspection cases for domestic vessels
     to ensure that deficiencies have been properly closed. Without mandated


     U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                                    Page 11
case reviews, the Coast Guard units have established inconsistent practices
that could cause more work for another Coast Guard unit later.
Inconsistencies may also allow vessels with overdue deficiencies to
operate in another Coast Guard unit’s area of responsibility undetected for
up to a year or until the next reinspection.

The District 8 office reviews a sample of approximately 10% of all foreign
vessel examinations each month and 100% of the towing vessel
examinations, but does not review any domestic vessel inspections.
Approximately once per month, District 8 staff extracts data of all
inspection cases in MISLE open for more than 6 months for review.
Reportedly, all units with open cases are contacted and requested to close
the open cases or provide an explanation. This review looks only at cases
that are still open and does not ensure that closed cases are accurate and
complete. The district reported that it has neither the time nor the
personnel to devote to additional domestic vessel inspection reviews,
including those of offshore vessels. During our review, the District 8
Prevention Department had only 16 individuals working in support of the
726 Marine Inspection personnel in the field involved with offshore vessel
safety inspections.

As of November 2010, 96 domestic offshore vessel inspection cases in
District 8 remained open for longer than 6 months (see Table 1). For
example, one case was open for 1,117 days. These 96 inspection cases
may have associated open deficiencies; however, the Coast Guard does
not know whether these cases include deficiencies because they have not
been reviewed. The Coast Guard should improve its process for
deficiency follow-up to prevent unsafe vessels from operating in U.S.
waters. If the Coast Guard does not ensure that all deficiencies are closed,
it cannot ensure the safety of maritime commerce.

Table 1. Open Inspection Cases in Excess of 6 Months*
      Days Open Over               Offshore Vessel Activities
         6 Months
        0–100 days                                64
       101–500 days                               14
         501+ days                                18
Source: U.S. Coast Guard, as of November 2010

One sector in District 8 established a local policy and process to follow up
on all deficiencies issued by Marine Inspectors at the sector. Although it
is a time-consuming practice, inspection cases are monitored until all
related deficiencies are closed. Even when a vessel leaves that sector’s
area of responsibility, the Marine Inspector is required to contact the Coast

U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                               Page 12
Guard unit where the vessel is operating to verify that the vessel owner
has closed the deficiency. If this follow-up does not occur, deficiencies
can stay open until the vessel’s next annual inspection. The deficiency
may not be so severe as to cause serious risk to people or the environment
if left open until the next re-inspection, but the Coast Guard does not have
the information to determine the severity of open deficiencies. Consistent
requirements and procedures across Coast Guard units could minimize
error, improve the integrity of the inspection data, and ensure greater
safety of maritime commerce.

Mandated and enforced case review would ensure that cases and
associated vessel deficiencies are closed in a timely manner. A case
review process would also allow a third party to assess the consistency,
accuracy, and completeness of the data. Regular and consistent inspection
case review could also improve the accuracy, completeness, and
consistency of MISLE data used to make key management decisions,
resource allocations, and mission-critical decisions for vessel inspection
and investigation activities.

Recommendation
        We recommend that the Assistant Commandant for Marine Safety,
        Security and Stewardship, U.S. Coast Guard:

        Recommendation #4: Develop and implement formal policy and
        procedures for the periodic review of MISLE inspection activities,
        including the review of open activities, overdue deficiencies,
        follow-up, and closure.

Management Comments and OIG Analysis

        Management Comments to Recommendation #4

        Concur. The Coast Guard will establish policy for the review of
        MISLE inspection activities by Coast Guard Areas and Districts,
        and establish timelines for MISLE case review completion. The
        Coast Guard anticipates implementing this recommendation in the
        second quarter of FY 2012.

        OIG Analysis

        We consider the proposed action to be responsive to the
        recommendation. However, this recommendation will remain open
        and resolved until we receive and review the final policy and


U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                               Page 13
             procedures requiring the periodic review of MISLE inspection
             activities, including the review of open activities, overdue
             deficiencies, follow-up, and closure of inspection records in MISLE.


Other Concerns

             Additional Towing Vessel Workload

             The Coast Guard Authorization Act of 2010 required the Secretary
             of DHS to issue a final rule regarding new inspection requirements
             for towing vessels. The regulation, to be issued by October 15,
             2011, will transition towing vessels from an uninspected to an
             inspected fleet. The Coast Guard estimates that more than 5,300
             towing vessels in the United States will have to be inspected.
             Although the Coast Guard is taking steps to prepare for inspections
             of towing vessels, adding more than 5,300 vessels will increase the
             Coast Guard’s inspection workload significantly. With an increase
             in inspection work and data entry, consistent policies and procedures
             for MISLE data entry and the review of inspection cases for
             accuracy and completeness will become even more critical.




     U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                    Page 14 

Appendix A
Purpose, Scope, and Methodology

                     We conducted this audit to determine whether the Coast Guard has
                     the capabilities and resources to conduct inspections of offshore
                     vessels to ensure the safety of maritime commerce. We narrowed
                     our scope to include the following offshore vessels, as categorized
                     by the Coast Guard:

                           �   Commercial Dive Support Vessel
                           �   Floating Production System
                           �   Floating Storage Offloading Vessel
                           �   Lift Boat
                           �   Mobile Offshore Drilling Unit
                           �   Offshore Supply Vessel

                     We conducted site visits to Sector New Orleans, LA; Sector Mobile,
                     AL; Marine Safety Unit Morgan City, LA; Marine Safety Unit
                     Houma, LA; and District 8 in New Orleans, LA. We based our site
                     visit selections on offshore vessel inspection data provided by the
                     Coast Guard, which showed that approximately 88% of the
                     inspections of offshore vessels conducted between January 1, 2009,
                     and June 30, 2010, occurred in District 8. At these site visits, we
                     interviewed employees and officials, made direct observations, and
                     reviewed applicable documents. We also interviewed officials at
                     Coast Guard’s headquarters in Washington, DC.

                     We performed testing to verify whether qualified Marine Inspectors
                     or Port State Control Examiners conducted each inspection, and
                     whether the inspections conducted on a particular vessel were the
                     inspections required and written on that vessel’s Certificate of
                     Inspection.

                     We reviewed a random sample of 361 MISLE inspection records.
                     We compared those records against qualification dates within the
                     Coast Guard’s Training Management Tool database and
                     qualification letters. We found that 357 inspections (98.9) were
                     conducted by qualified Marine Inspectors or Port State Control
                     Examiners, and that 4 inspections (1.1%) were not.

                     We requested the Certificates of Inspection for 62 offshore vessels
                     operating in District 8. The list of activities performed during each
                     annual Certificate of Inspection examination was recorded. We
                     also requested the MISLE data for the same 62 offshore vessels.
                     The information was filtered to show data from the same year as
                     the Certificate of Inspection examinations and that the subsequent
                     list of activities was recorded. We compared these two sets of data

             U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections

                                            Page 15
Appendix A
Purpose, Scope, and Methodology

                     to determine whether the MISLE data reflected the same activities
                     as those listed on the Certificate of Inspection examinations. Our
                     testing revealed that only 6 of the 62 vessels showed the same
                     number of activities in the MISLE database as was recorded on the
                     Certificate of Inspection.

                     We reviewed Coast Guard documents, including relevant
                     ALCOAST messages and the Marine Inspector Performance
                     Analysis Report, dated April 2005, conducted by the Coast Guard’s
                     Performance Systems Branch. We also compared the Coast
                     Guard’s current Marine Inspector Performance Qualification
                     Standards for foreign and domestic vessel safety inspections dated
                     October 2007 with corresponding versions that predate October
                     2007, to determine the changes over time. We reviewed the
                     following Marine Inspector Performance Qualifications Standards:

                      Barge             Hull                      Mobile Offshore Drilling
                                                                  Unit
                      Drydock           Machinery Steam           Control Verification
                                                                  Inspector/Foreign
                                                                  Passenger Vessel
                      K-Boat            Hull-tank                 Foreign Freight Vessel
                                                                  Inspector
                      Liferaft          Offshore Supply           Foreign Chemical Tank
                                        Vessel                    Vessel
                      Machinery         T-Boat                    Foreign Tank Vessel
                                                                  Inspector

                     We conducted this performance audit between April and December
                     2010 pursuant to the Inspector General Act of 1978, as amended,
                     and according to generally accepted government auditing
                     standards. Those standards require that we plan and perform the
                     audit to obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions based upon our
                     audit objectives. We believe that the evidence obtained provides a
                     reasonable basis for our findings and conclusions based upon our
                     audit objectives.

                     We appreciate the cooperation and courtesies extended to our
                     review team by Coast Guard officials. Appendix C identifies
                     major contributors to this report.




             U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                            Page 16 

Appendix B
Management Comments to the Draft Report



   U'$.o._n,.
   Hom.I..,d !Io<urlty                    C<Imm..,,"," ((;""'1
                                          """" ..vo_""""'
                                          .- _
                                                      ........
                                                          Go*"
   United Sla,..
   CO"1 Guar"

                                                                           16700
                                                                           April 7, 2011
   MEMORANDUM
   From:    Eric P,   Chri'lense~
            COMOT (CG-S·n)
                                                                    Reply l<>
                                                                    AllIlof:
                                                                                  G. L Boone. COR
                                                                                  (202) 372-12IS


   '"
   S"bj:
            Anne L Richards. Assi"an,lnspcc1Or General IOf Audits

            COl>1.\fENTS TO 010 ORAIT REPORT: U.s. COAST MARINE SAfETY
            PROGRAM -OfFSHORE VF~"SEL INSPECTIONS

   Ref:     fa) Your memo did (fl Mar 2011 w/a'taehme;ll

   L Thank )'0" for Ille OJlPOl1uniry '0 ,..,view and co",melll 10 your draft "'pon. Specific comm<n1S
   and amidpatcd comple'ion and implementation <!ale, art: <oclo,.,<I. Tho: U.s. Co"" Guard ..... no
   concern, "i'h Il1e release of 'hi' informalion '0 ,he public.

   2. We apprecia'e )'OU! .taff'. external ,,,,,;"w of our proccs"" ,hat are vilal 10 our Maritime Safety
   Mission. If 'he", i. anything el", my ....if can <10 l<> help "i'h ,hi. ",pon <10 not he.iwe 10 ask.

   3. Queslio.... cot><:<:ming 'hi' m=orandum and     conttnen"     ma)'   b< di""'cJ to Commander Lot
   Boone a' (202) 372·121 S or ~<OW5.1,b<~'!If·'i,.u<>~.Lnil.




                   U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                                       Page 17
 

Appendix B
Management Comments to the Draft Report


                   Comments to OIG Draft Report: U.S. Coast Guard 

                  Marine Safety Program – Offshore Vessel Inspections 


The U.S. Coast Guard has no concerns with the release of this information to the public.

Recommendation #1: Complete and disseminate to field units New Construction Project
Inspector Performance Qualification Standards and update the Marine Safety Manual
accordingly.

Response: Concur - The analysis of the Marine Inspector Course (MIC) that will begin
in the 3rd quarter of FY11 will take into account new construction and plan review as
part of the analysis along with any other new/additional tasks that may be identified.
These tasks will be incorporated into the PQS and curriculum job aids developed for
inspectors.

Anticipated implementation: 3rd Qtr, FY12

Recommendation #2: Concur - Develop and disseminate MISLE user guidance for
domestic vessel safety inspections.

Response: Concur – Policy for MISLE entries of domestic vessel safety inspections is
currently being developed by CG-543. User guides for the next version of MISLE
(Version 5.0), based on this policy, is also under construction.

Anticipated completion: 4th Qtr FY11 through 3rd Qtr, FY12

Recommendation #3: Augment MISLE access controls, and develop subsequent policy,
so that the same person cannot open, complete, and close an inspection case.

Response: Concur – CG-543 will recommend establishing access control levels to
MISLE 5.0 developers, and provide policy to the field regarding opening, completing,
and closing an inspection case.

Anticipated implementation: 3rd Qtr, FY13

Recommendation #4: Develop and implement formal policy and procedures for the
periodic review of MISLE inspection activities, including the review of open activities,
overdue deficiencies, follow-up, and closure.

Anticipated implementation: 2nd Qtr, FY12




               U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                              Page 18 

Appendix B
Management Comments to the Draft Report

Response: Concur – CG-543 will establish policy for review of MISLE inspection
activities for Coast Guard AREAS and Districts to follow, and establish timelines for
MISLE case review completion.




               U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                              Page 19 

Appendix C
Major Contributors to this Report

                     Brooke Bebow, Audit Director
                     Andrea Rambow, Audit Manager
                     Emily Pedersen, Program Analyst
                     Gwen Priestman, Program Analyst
                     Rebecca Mogg, Program Analyst
                     Keith Nackerud, Program Analyst
                     Katrina Bynes, Program Analyst
                     Matthew Noll, Independent Referencer




             U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                            Page 20 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             U.S. Coast Guard’s Marine Safety Program – Offshore Vessel Inspections 


                                            Page 21
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
